No. 20A96
IN THE

Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY ex. rel.
ATTORNEY GENERAL DANIEL CAMERON
Applicants,
v.
ANDREW BESHEAR, in his official capacity as Governor of Kentucky
Respondent
CERTIFICATE OF COMPLIANCE
I, Thomas Bruns, a member of the Bar of this Court and counsel for the amicus on the
accompanying Motion by Kentucky Religious Schools and Parents to (1) File Amicus Curiae
Brief, with Attached Brief in Support of Applicant, (2) To do so in an unbound format in 8 ½-by11 inch paper, (3) to do so without ten days advance notice to the parties, certify under Rule
33.1(h) of the Rules of this Court that the motion contains 683 words and the brief contains
4,246 words, excluding the parts that are exempted by Rule 33.1(d).
/s/Thomas Bruns____________
Thomas Bruns (KBA 84985)
Counsel of Record
Bruns Connell Vollmar & Armstrong
4750 Ashwood Drive, STE 200
513-312-9890
tbruns@bcvalaw.com
Counsel for Amicus Curiae

